<html>
<title> - MIXED SIGNALS: THE ADMINISTRATION'S POLICY ON MARIJUANA, PART TWO</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





   MIXED SIGNALS: THE ADMINISTRATION'S POLICY ON MARIJUANA, PART TWO

=======================================================================



                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2014

                               __________

                           Serial No. 113-147

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      

                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-225 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM
              

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                 Subcommittee on Government Operations

                    JOHN L. MICA, Florida, Chairman
TIM WALBERG, Michigan                GERALD E. CONNOLLY, Virginia 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
THOMAS MASSIE, Kentucky              MARK POCAN, Wisconsin
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 4, 2014....................................     1

                               WITNESSES

The Hon. Thomas M. Harrigan, Deputy Administrator, Drug 
  Enforcement Administration
    Oral Statement...............................................    10
    Joint Written Statement......................................    13
The Hon. John F. Walsh, U.S. Attorney, Colorado Department of 
  Justice
    Oral Statement...............................................    18
    Joint Written Statement......................................    13

                                APPENDIX

Letter from Richard J. Bonnie, Harrison Foundation Professor of 
  Medicine and Law...............................................    44

 
   MIXED SIGNALS: THE ADMINISTRATION'S POLICY ON MARIJUANA, PART TWO

                              ----------                              


                         Tuesday, March 4, 2014

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 1:37 p.m., in 
Room 2247, Rayburn House Office Building, Hon. John Mica 
[chairman of the subcommittee] presiding.
    Present: Representatives Mica, Massie, and Connolly.
    Also Present: Representatives Blumenauer and Cohen.
    Staff Present: Will Boyington, Deputy Press Secretary; Adam 
P. Fromm, Director of Member Services and Committee Operations; 
Tyler Grimm, Senior Professional Staff Member; Christopher 
Hixon, Chief Counsel for Oversight; Emily Martin, Counsel; Katy 
Rother, Counsel; Jaron Bourke, Minority Director of 
Administration; Courtney Cochran, Minority Press Secretary; 
Juan McCullum, Minority Clerk; and Cecelia Thomas, Minority 
Counsel.
    Mr. Mica. Good afternoon. I would like to call this hearing 
of the House Oversight and Government Reform Committee and the 
Subcommittee on Government Operations, this hearing to order. 
Today's hearing is entitled ``Mixed Signals, the 
Administration's Stance on Marijuana.'' And this is the second 
in a series of hearings; we held one previously, heard from the 
Office of National Drug Control Policy. And today we will hear 
from several witnesses.
    I might announce too in advance and also inform the 
minority staff that we'll be doing a third in this series that 
will focus on some of the aspects of the effect of marijuana, 
its potency, and a host of other issues relating to comments 
that have been brought to date. We'll hear some more issues 
today. But we plan to continue this review. And that would be 
our third hearing, and we'll work with the minority staff, the 
Democrats, to set that. And also invite you to have witnesses 
to participate in that.
    The purpose of our Government Reform and Oversight 
Committee is just that, to make certain that taxpayer dollars 
is well spent and that the policy that we have is sound. Among 
the responsibilities of our subcommittee, Mr. Connolly and I 
are charged by the charter given to the subcommittee to also 
deal with a whole host of issues, pretty broad authority, but 
one of those is issues that relate to State and Federal laws 
and relationships and mandates and things of that sort. So 
that's the reason our committee is involved.
    My particular personal history is I did--I have chaired two 
other subcommittees on this full committee. One of them was 
Criminal Justice, Drug Policy, and actually I think I cited 
before for the record that I had held the first, probably, 
hearing on marijuana in Congress, way back in 1998 and 1999, 
2000, the time frame in which I chaired that subcommittee. So 
we are trying to do an honest, thorough, and open review of 
where we stand on this issue and that's the purpose of this 
hearing.
    The order of business today, I will hear opening 
statements. And we may be joined by some other Members as they 
make their way back. This was originally scheduled for another 
time. I appreciate everyone's cooperation in the quick 
rescheduling. And I know that the weather has been just an 
incredible hindrance to conducting our normal affairs. But 
again, I thank everyone. We may be joined by some other 
subcommittee members.
    And, Mr. Connolly, we are joined by Mr. Blumenauer. And I 
would entertain a motion.
    Mr. Connolly. Mr. Chairman, I would ask unanimous consent 
that Mr. Blumenauer be allowed participate in this hearing.
    Mr. Mica. Without objection, so ordered.
    Mr. Connolly. I thank the chair.
    Mr. Mica. If we have other--we've had others in the past 
who are chosen to join us. Again, the order of business would 
be we hear from members of our panel, and we'll do that first 
in opening statements and also afford Mr. Blumenauer, others 
who are not a member of the panel the same opportunity, the 
same order in questioning if that's suitable. So we'll proceed.
    With that, I'll open with some remarks and then I'll yield 
to Mr. Connolly.
    Again, I have to thank our two witnesses. Both Mr. Harrigan 
from the Drug Enforcement Administration, Mr. Walsh, the U.S. 
attorney from Colorado, for attending and accommodating the 
change in schedule.
    A month ago, as I mentioned briefly, we heard in our first 
hearing the Deputy Director of the Office of National Drug 
Control Policy, Mr. Botticelli. He affirmed that, despite the 
President's public comments on relative safety of marijuana, 
that the Office of National Drug Control Policy, which is right 
under the President in pecking order, it was put under the 
White House, but that office continues to be opposed to 
marijuana because marijuana is a dangerous substance. And that 
was his testimony to us.
    What stirred some of this up was the President's comments. 
And the President in January during an interview said, I 
don't--speaking--well, I should give his full quote, I don't 
want to take it out of context. ``As has been well 
documented,'' President Obama said, ``I smoked pot as a kid, 
and I view it as a bad habit and vice, not very different from 
the cigarettes that I smoked as a young person, up through a 
big chunk of my adult life. I don't think it's more dangerous 
than alcohol.'' And then he also went on to quote about State 
legalization efforts. It's important to go forward.
    And with the President's commentary with now a number of 
States changing their laws in regard to medical use and now 
recreational use, we do have a distinct conflict between State, 
I called it the state of conflict and chaos right now, Federal 
law versus State law and initiatives. But again, we are trying 
to sort this out.
    We've heard from others that, not just ONDC, about the 
challenge that we now have with States legalizing marijuana for 
recreational use. But also we have the public perception of 
risks about marijuana. And we, again, have issues with the 
increased use of marijuana with our adolescent population. And 
they are some of our most vulnerable citizens.
    As the National Institute of Drug Abuse Director Nora 
Volkow wrote last year, and I'll quote from her, ``Given the 
current number of regular marijuana users, about one in 15 high 
school seniors, and the possibility of this number increasing 
with marijuana legalization, we cannot afford to divert our 
focus from the central point: Regular marijuana use stands to 
jeopardize a young person's chances of success in school and in 
life.'' And that, again, is an administration official.
    The DEA Administrator, Michele Leonhart, affirmed this 
message in a statement that was made on December 20th, 2013. 
And let me quote that. ``The mixed messages being sent to 
America's teens about the harmless and legality of using record 
high potency marijuana are obscuring kids' awareness of the 
effects their use will have on them. America owes it to its 
children to give them the best possible start in life so they 
and society are not hindered in the future.'' And that's a 
quote of another administration official.
    So today's hearing will go further into looking at the 
conflicting messages of the administration, also the conflict 
we have with some State laws, and the current enforcement of 
Federal laws. We have to see again what is going on there with 
these 20 States that have legalized marijuana for medicinal 
purposes and recently, as you know, Colorado and Washington 
legalized marijuana for recreational use.
    I said it last month, but today's hearing, it's 
particularly important to remember State laws do not change our 
Federal laws. Federal laws still classify marijuana as a 
Schedule I drug. That means marijuana is, one, illegal and two, 
it's classified as--you know, as an illegal narcotic.
    Despite the Federal prohibition on marijuana, the 
Department of Justice that has issued policy memoranda that 
explicitly decline to enforce the laws. On February 14th, 2014, 
the Department of Justice issued a memo asserting a similar 
policy to abstain from prosecuting Federal banking violations 
associated with servicing marijuana businesses in States that 
have legal marijuana, these policies create some ambiguity 
about the true state of the Federal law.
    I think we also heard from Mr. Blumenauer last time about 
some of the conflict in not being able to deal in some of this 
marijuana cash that's now mounting into--I heard as much as 
billions of dollars.
    The Colorado Bankers Association said this in a response to 
the February memo: Bank--and let me quote again: ``Bankers had 
expected the guidance to relieve them of the threat of 
prosecution should they open accounts for marijuana businesses. 
But the guidance does not do that. Instead it reiterates 
reasons for prosecution. And is simply a modified reporting 
system for banks to use. No bank can comply.'' And that was 
again from the Colorado Bankers Association.
    Finally, let me say that the DEA has found the conflicting 
messages that are being sent out as a growing barrier to 
effective law enforcement. In an interview with ABC, DEA 
Assistant Special Agent Gary Hill, said and I'll quote him, 
``We catch ourselves in a rock and hard place. We want to 
enforce Federal laws, but we have times when State laws make it 
difficult for us to be able to enforce the Federal laws as 
well.'' That's his quote.
    We are here today to hear from DEA. We are also here to 
take the testimony of the Colorado U.S. attorney about what 
Federal marijuana enforcement looks like on the ground, where 
we are going with all this, and how these policies affect our 
drug enforcement agencies and how these policies that we are 
now confronting, and sometimes lack of policies, and pretty 
foggy, hazy, almost marijuana-induced haze on the issue we--
there is no question we have a problem and some issues. So we 
need to air them, see where we are going, and what we are going 
to do.
    With those opening comments, I'm pleased to welcome again, 
our ranking member, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And before I begin 
my statement, may I also ask unanimous consent that our 
colleague, Mr. Cohen from Tennessee, be allowed----
    Mr. Mica. Without objection so ordered.
    Mr. Connolly. I thank the chair.
    I want to thank you, Chairman Mica, for holding today's 
hearing, the second in a series of oversight hearings by our 
subcommittee to examine Federal policy and laws with respect to 
marijuana. Today's hearing is focused on the implementation of 
DOJ policy guidance addressing Federal marijuana enforcement 
priorities and the treatment of marijuana-related financial 
crimes under regulations regulated by FinCEN. As I noted last 
month, from the outset, I want to be clear, I am not 
unsympathetic to the concerns raised by skeptics of marijuana 
decriminalization or legalization. As somebody who grew up in 
the '60s, I witnessed firsthand the ravages of drug abuse, and 
it gave me a permanent revulsion to them and to it. I am a 
skeptic myself.
    However, as a policy maker, I think we have--it's incumbent 
upon us to examine the evidence and deal in cold, hard facts. 
While I remain wary about outright legalization of marijuana, I 
am just as alarmed by figures that were raised in our prior 
hearing. For example, in 2011, the FBI reported approximately 
750,000 Americans were arrested for a marijuana law violation. 
That's one marijuana arrest every 42 seconds. That outpaced 
significantly the total number of arrests for violent crime 
that year.
    The reality is that no matter one's normative judgment, to 
be clear, I share the view that the use of Cannabis is a bad 
idea. Not very healthy. But a fair examination of the evidence, 
public health facts, leads to several conclusions. First, our 
Nation's decades' worth of experience combating marijuana use 
with a policy of criminalization and prohibition has not proved 
effective in deterring the use of marijuana.
    Second, marijuana's classification is a Schedule I 
narcotic, which you made reference to, Mr. Chairman, under the 
Controlled Substances Act of 1970, must be reconsidered, in 
light of evidence of legitimate medicinal uses as well as the 
reality that marijuana, bad idea as it may be to some including 
me, does not pose a greater threat to public health than some 
heavy drugs like heroin, LSD, or even prescription drugs or 
alcohol abuse. It seems to me it's time for our Nation to 
approach the debate of our marijuana policy with more honesty 
and less hyperbole.
    I was disappointed at our previous hearing when the Deputy 
Director of the White House Office of National Drug Control 
Policy was unable to identify the annual rate of deaths in our 
country resulting from marijuana overdoses and had to be 
badgered into confirming basic public health facts. It's a 
disservice to public discourse when policy makers refuse to 
grapple with challenging and complex issues in a more open and 
objective manner.
    As I noted last month, the Federal Government's 
ineffectiveness in significantly reducing marijuana use becomes 
even starker when one contrasts our Nation's failure to stem 
rising marijuana usage traits with the results of our country's 
voluntary anti-tobacco campaign. Without resorting to a policy 
of prohibition and criminalization, our country has brought 
tremendous resources to bear in an effort to prevent and reduce 
tobacco use. Most importantly, those efforts are, in fact, 
working. Our Nation cut the adult smoking rate in half for 42.4 
percent in 1965 to 18 percent today. California successfully 
lowered its adult smoking rate from 16.3 percent in 2000 to 
12.7 percent in 2012. And with respect to reducing frequent 
cigarette use among youth nationwide, CDC reports that the 
decrease has been dramatic, falling from 16.8 percent in 1999 
to just 7.3 percent in 2009.
    Our steady progress in reducing tobacco use, along with 
America's ill-advise attempt at instituting complete alcohol 
prohibition, serves as a valuable reminder that the best 
policies to prevent and reduce the use of perceived or real 
harmful substances need not, and perhaps should not involve 
total prohibition and criminalization.
    Finally, beyond questions of effectiveness, Congress must 
also not forget the basic issue of inequality. Research by many 
had found that in 2010, black Americans were four times more 
likely than whites to be arrested on charges of marijuana 
possession, even though the utilization of marijuana is roughly 
equal in both groups. Worse, the data indicates that these 
racial disparities are even greater when you dig down at the 
State level, with black Americans being eight times more likely 
as whites to be arrested in certain States, including Iowa, 
Illinois, and Minnesota. This level of disparity is 
indefensible. And I commend the President for refusing to 
accept the status quo that he accurately summarized as one 
where ``middle-class kids don't get locked up for smoking pot, 
poor kids do.''
    As a Member of Congress who approaches this issue from an 
outsider perspective, at least compared to my colleagues who 
have been deeply involved in marijuana policy, I have been 
surprised by the degree to which stakeholders have tended to 
dwell on differences to the exclusion of the goals shared by 
all. We would be well served to heed the observation made by 
the sheriff of King County, Washington State, who testified 
before Congress in 2013 at a Senate Judiciary Committee hearing 
very similar to the one we are holding here today, ``While the 
title of this hearing is 'Conflict Between State and Federal 
Marijuana Laws,' I don't see a huge conflict,'' the sheriff 
said. ``The reality is we do have complimentary goals and 
values. We all agree we don't want our children using drugs, we 
all agree we don't want impaired drivers, we all agree we don't 
want to continue enriching criminal. Washington's law honors 
these values, but separating consumers from gangs and diverting 
the proceeds from the sale of marijuana to furthering the goals 
of public safety. Is legalizing and regulating the possession 
and sale of marijuana a better alternative?'' He said, ``I 
think it is, and I'm willing to be proven wrong. But the only 
way we'll know is if we're allowed to try.'' That's his quote.
    I have long believed that the Federal Government governs 
best when it truly listens and learns from our States, the 
incubators of democracy. The citizens of States across the 
country seem to be headed in a direction different than our 
Federal policy. They want their local governments to have the 
opportunity to innovate and experiment with regulatory and 
enforcement frameworks governing marijuana use. And I believe 
it's in our national interest to let those ongoing laboratories 
of democracy proceed. With that, I look forward to the 
testimony, Mr. Chairman. Thank you.
    Mr. Mica. Thank you. And I'll ask unanimous consent just to 
insert in the record after the ranking member's statement some 
statistics about the increase of use of marijuana by 8th 
graders since 2008 up 5.8 percent, 10th graders up 13.8 
percent, 12th graders up 19 percent.
    I just thought since the ranking member mentioned the 
success we have had in tobacco, we are backsliding on 
marijuana. It is up to Mr. Connolly. Do you want to give these 
guys a minute or two?
    Mr. Connolly. Certainly, Mr. Chairman.
    Mr. Mica. With the consent of Mr. Connolly, recognize first 
Mr. Blumenauer for any opening comments.
    Mr. Blumenauer. Thank you very much, Mr. Chairman. I 
appreciate your interest and follow-through in this important 
area. And I appreciate the courtesy of the committee being able 
to participate.
    Mr. Chairman, you pointed out at our last hearing, we are 
talking about $25 billion, according to the CBO, that is spent 
on these efforts dealing with drugs in the United States. You 
also referenced a serous problem that I talked about at the 
last session we haven't completely resolved in terms of what 
happens with this never-never land with banking regulations 
where we have legitimate businesses in Colorado paying their 
taxes, as we want them to do, with shopping bags full of $20 
bills. Something that anybody who cares about money laundering, 
who cares about tax evasion, who cares about robbery should not 
want to embrace. And I hope that the warm signs from the 
administration are followed up to be able to give it the 
precision that it needs.
    I do appreciate in the testimony, the joint testimony from 
Mr. Harrigan and Mr. Walsh, the priority statement. Because I 
think that that's a very important area for us to focus on. And 
at the top of that list is keeping marijuana out of the hands 
of our children. And I would hope, as there are different 
issues and different approaches that this is something that we 
could all focus on, that we could agree to and work to try and 
resolve.
    And, Mr. Chairman, I really appreciate you putting in the 
record the fact that marijuana use is increasing among 
children. Not as high as tobacco, but it's higher than we would 
want, it is unacceptable. But I think it underscores the abject 
failure of our current policy. We have arrested two-thirds to 
three-quarters of a million people a year. We have the force of 
law behind it, we've locked people up. We're spending billions 
of dollars and it's not working. I don't know anybody who 
thinks the policy is a success.
    I think that part of the problem, and as I tried to get at 
with our witness at the last hearing, is that we have decidedly 
mixed messages and we're not credible. When the gentleman could 
not answer, this is the deputy, could not answer what--what is 
more dangerous, methamphetamine or marijuana, he couldn't give 
an answer. But any parent of kids, any law enforcement official 
knows that meth is ravaging American communities. And so the 
inability to give honest, direct answers: Has anybody died from 
a marijuana overdose? I had an opportunity to be--participating 
in a program with the director of CDC this weekend. He wasn't--
we were talking about 16,000 people who've died from 
prescription drugs overdoses. And we chronicle how many die 
from cocaine, which is allegedly more dangerous under the 
statute than marijuana. We know these things. He could not name 
any examples. He thought there may have been one or two. But 
that's, I think, stunning.
    When we can't give our kids and their families straight 
answers that they know to be--I think it undermines their 
credibility and it speaks to misplaced priorities. It's not 
effective in keeping it out of the hands of our kids. We have 
ought to do that.
    One of the things that I'm deeply troubled by is that these 
antiquated policies dramatically interfere with the research 
that we need that is able to give better answers. Mr. Chairman, 
that is something that just deeply troubles me, I was at OHSU, 
Oregon Health Science University, a few weeks ago talking to 
people who deal with children with severe cases of epilepsy--
and I think this was on the front page of The Washington Post--
where some parents are reaching out, they are moving to 
Colorado to give their children relief from these violent 
epileptic seizures that just destroy their lives. And it was 
stunning to me that the researchers who admitted that there are 
some people that get positive results, but they don't have the 
wherewithal to do the research to be able to understand what 
works and what doesn't. It's easier for parents in this strange 
world of medical marijuana, where we've got 20 States and the 
District of Columbia, each being a little different, but legal, 
being able to get access to medical marijuana, than researchers 
who could help us get the answers that we need and deserve.
    Mr. Chairman, Mr. Connolly, I hope that the President or 
Congress fixes the conflict. And there are ways that we could 
do that to get these people out of an impossible situation 
where State law is moving in one direction, where public 
opinion is moving even faster. But they are caught with an 
antiquated, outdated, inconsistent, and grotesquely unfair 
Federal statute. The contrast with tobacco that Mr. Connolly 
made is stark. I hope we can learn from this.
    And, Mr. Chairman, I think these hearings that you're 
having, opening it up, focusing on it, not ducking the tough 
questions, is providing a very important service. I'm pleased 
that you are doing it, and I'm gratified that I can participate 
with you. Thank you very much.
    Mr. Mica. I thank the gentleman.
    And, Mr. Cohen, did you have any opening comments?
    Mr. Cohen. Thank you, Mr. Mica. I thank you and Mr. 
Connolly for allowing me to participate. I think this is one of 
the most important committees, that we--subcommittee hearings 
we've had since I've been in Congress. Because the basic 
respect for the law is so important and what we do as 
legislators, Congress people is pass laws. When there is a law 
that is so universally looked upon as wrong, a cultural lag 
where the public doesn't agree with what the law is, it breeds 
disrespect for the law, for the entire judiciary system. 
Therefore, it needs to be rectified. Because the foundation of 
our society rests upon the law. And young people think the law 
is a joke. And a lot of people that aren't so young think the 
law on marijuana is a joke, that you're taking people's 
liberties away.
    I want to go back into some history. A gentleman named 
Richard Bonnie, and I'd like to introduce his letter. He's the 
Harrison Foundation professor of medicine and law at UVA School 
of Law. Professor of psychiatry, as well, and we'll get to 
psychiatry later, and director of the Institute of Law, 
Psychiatry, and Public Policy. He served as the Associate 
Director of the National Commission on Marijuana and Drug Abuse 
from 1971 to '73. Richard Nixon was President. Long time ago. 
And they had deliberations on this subject of marijuana. And he 
wrote a paper called ``Marijuana: A Signal of 
Misunderstanding.'' The Commission and that paper recommended 
decriminalization for personal use in 1972.
    And he said that the Commission only classified marijuana 
as Schedule I temporarily until studies could come forth. And 
there were studies available, and he felt clearly that the 
studies and particularly some other evidence that we've got, 
Dr. Sanjay Gupta has referred to. From the Assistant Secretary 
of Health, Dr. Roger Egeberg, who wrote a letter on this, 
suggesting--he's the one that suggested it would be classified 
as ``I'' temporarily until studies could take place. Dr. 
Egeberg said, ``Since there is little''--``still a considerable 
void in our knowledge of the plant and effects of the active 
drug contained it in it, our recommendation is marijuana be 
retained within Schedule I at least until the completion of 
certain studies now underway to resolve the issue.''
    So not because of sound science, Dr. Sanjay Gupta said, who 
changed his opinion on marijuana. But because of its absence, 
its absence of science, because they never completed the 
studies, looked at the studies, nor got involved there that it 
was schedule--Schedule I. That was 1970. And there were studies 
underway that were never used.
    The idea that it's an Schedule I drug is ludicrous. Same as 
heroin and LSD, as far as their lack of medical benefits and 
their likelihood of causing addiction. And the DEA could start, 
Justice Department could start by recommending that it be 
changed from Schedule I. And it should be changed from Schedule 
I.
    But let me go back to some history, Mr. Chairman. And I 
think this is shocking to me, but it came to my attention 
through a Huffington Post article recently. This all started 
back in the 19--late '30s, Harry Anslinger was the head of DEA 
and decided that people from the south, Mexico, were getting 
too involved in our community and our country, and that one way 
to do something was to start to enforce laws against marijuana, 
which was before that Cannabis, but ``marijuana'' sounded more 
Mexican and objectionable to people that didn't like Hispanics. 
So it took on that tone. And they made it illegal. It wasn't 
illegal up to that time.
    But the war on drugs started under President Nixon. And Mr. 
Haldeman--some people may not remember, Haldeman and Ehrlichman 
and these guys were big in the Watergate hearings, but they 
were the main think tank for President Nixon, if you call that 
``think.''
    Haldeman, in a diary entry of April 28, 1969 said, ``He 
(Nixon) the President of the United States, ``emphasized if you 
have to face the fact that the whole problem''--and this is 
about drug and the drug war--``is really the blacks. They key--
the key is to devise a system that recognizes this while not 
appearing to.''
    So we have started with Anslinger coming down on the 
Latinos. And then Haldeman says, Nixon did it to get at the 
blacks, who Mr. Connolly rightfully pointed out are four times 
more likely to be arrested and eight times more likely to be 
convicted.
    Then we have Mr. Ehrlichman, White House Counsel to 
President Nixon, in an interview, the author of ``Smoke and 
Mirrors, the War on Drugs and Politics of Failure,'' and Mr. 
Ehrlichman said, ``Look, we understand we couldn't make it 
illegal to be young or poor or black in the United States. But 
we could criminalize their common pleasure. We understand that 
drugs were not the health problem we were making them out to 
be. But it was such a perfect issue for the Nixon White House, 
we couldn't resist it.''
    I just want you all to know the underpinnings of the 
policies that you are carrying out and furthering, the basis of 
them and where they started and the genesis of them. And then 
Mr. Ehrlichman said, ``We knew we were lying about the health 
effects on marijuana. We knew we were lying about that. But 
this is what we were doing to win the election. And it 
worked.''
    43 years ago. Admitted all fantasy. But our law still goes 
on and we continue to do it. And it's still Schedule I.
    We are abettors, aiders and abettors of Ehrlichman, 
Haldeman, and Nixon.
    Then I think it's interesting, and sort of has nothing to 
do with my good friend Mr. Mica, who talked about the 
schizophrenia of the drug policies. My father was a 
psychiatrist. I found this really interesting. And I'm Jewish. 
Some of my colleagues who are for this are not Jewish. But, Mr. 
Nixon, in talking to Haldeman, his chief of staff, says, ``I 
want a G.D. Strong statement on marijuana. I mean, one on 
marijuana that just tears the rear out of them. By God, we're 
going to hit the marijuana thing. I want to hit it right square 
in the puss. You know, it's a funny thing, every one of the 
bastards out there for legalizing marijuana is Jewish. What the 
Christ is the matter with the Jews, Bob? What is the matter 
with them? I suppose it's because most of them are 
psychiatrists.''
    That is the underpinnings and the genesis of the policy 
upon which our drug war is being fought. I think it's time to 
get real and change it.
    I thank you for the opportunity to quote these American 
leaders. Thank you.
    Mr. Connolly. Mr. Chairman?
    Mr. Mica. Yes.
    Mr. Connolly. I have to commend our colleague for an 
excellent imitation of Richard Nixon.
    Mr. Cohen. I am not a crook.
    Mr. Mica. Well, we certainly have a diversity. And, Mr. 
Connolly, when we open this to other Members who aren't on the 
panel, we get an earful. But I think it's--everyone has their 
perspective and where they're coming from needs to be aired. So 
that's the purpose of this hearing.
    We'll leave the record open for an additional 7 days for 
other members that may have statements. Without objection, so 
ordered.
    Now we'll turn to our two witnesses, and I thank them again 
for being patient and for the rescheduling. We have before us 
today the Honorable Thomas Harrigan. And he's Deputy 
Administrator of the Drug Enforcement Administration. And then 
we have the Honorable John F. Walsh. He's the United States 
Attorney in Colorado with the Department of Justice.
    Gentlemen, I'm not sure if you've testified before our 
Committee or Subcommittee before, but this is an investigative 
committee. We do swear in our witnesses. If you'll stand, raise 
your right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give before this Subcommittee of Congress is the whole 
truth and nothing but the truth?
    The witnesses have answered in the affirmative, and the 
record will reflect so. Our custom--we only have two witnesses, 
but we want to hear from you. We won't--I'm not going to run 
the clock real tight. But if you have lengthy statements you'd 
like to have made part of the record, you can do that, or 
additional information, just through a request of the chair. 
And we'll proceed.
    So let me first recognize and welcome Thomas Harrigan, 
Deputy Administrator of the Drug Enforcement Administration. 
Welcome, sir, and you're recognized.

                       WITNESS STATEMENTS

              STATEMENT OF HON. THOMAS M. HARRIGAN

    Mr. Harrigan. Thank you so much, sir. And I promise not to 
do any impressions.
    But again, Chairman Mica, Ranking Member Connolly, and 
distinguished members of the subcommittee. On behalf of 
Administrator Leonhart' and the Drug Enforcement 
Administration, I appreciate your invitation to testify today 
regarding DEA's response to State efforts to legalize marijuana 
and our enforcement strategy. And at this time, chairman, I ask 
that my written statement be made part of----
    Mr. Mica. Without objection, so ordered.
    Mr. Harrigan. I'd like to begin with a few facts. One, 
marijuana is the most widely available and commonly abused 
illicit drug in the United States. According to the 2014 
National Drug Threat Survey, more than 80 percent of the 
responding agencies reported that marijuana was readily 
available in their jurisdictions. The greater availability of 
marijuana is due in part to domestic indoor grow operations and 
States permitting the cultivation of marijuana for medical and 
recreational purposes.
    Number two. The number of people reporting use of marijuana 
within the past month increased 21 percent from 2007 to 2011. 
In each of those years, the number of people reporting 
marijuana abuse was greater than all other drugs combined.
    Number three. As the perceived danger of marijuana use has 
decreased, abuse among adolescents is increasing. According to 
the Monitor the Future Survey, since 2009, more students have 
been smoking marijuana than cigarettes.
    Number four. There was a 59-percent increase in marijuana-
related emergency room visits between 2006 and 2010. Marijuana 
was second only to cocaine for illicit drug-related emergency 
room visits in 2010.
    Five. Today's marijuana is many times more potent than it 
was in the past. Between 2007 and 2011 alone, the average 
percentage of THC in marijuana increased 37 percent.
    Number six. Marijuana remains a Schedule I controlled 
substance under the Controlled Substances Act and has no 
scientifically accepted medicinal use, is addictive, and has a 
high potential for abuse.
    DEA will continue to aggressively enforce the Controlled 
Substances Act by identifying and investigating any criminal 
organization or individual who unlawfully grows, markets, or 
distributes marijuana or other dangerous drugs.
    DEA supports our State and local counterparts through joint 
investigations and through the domestic Cannabis eradication 
and suppression program which targets marijuana cultivation by 
providing resources to 127 law enforcement agencies across the 
country.
    Last year, investigations related to this effort led to the 
eradication of more than 4.3 million marijuana plants grown in 
the U.S., the seizure of over $29 million in assets, more than 
4,000 weapons and 121,000 pounds of processed marijuana.
    Both domestically and internationally, DEA continues to 
work with our international law enforcement counterparts in 
identifying and combating drug trafficking organizations that 
pose the greatest threat to the American public. These threats 
are real, as we have seen international trafficking 
organizations exploiting the changes in State marijuana laws, 
including owning and operating sham marijuana businesses under 
the guise of legitimate commerce.
    The United States has a proud history of protecting its 
people and ensuring the common good based on science and well-
reasoned policy, not changes in public opinion. For decades we 
have known that driving under the influence kills people, 
smoking causes cancer, and wearing seat belts and using infant 
car seats saves lives. In response, legislatures, including 
this one, have enacted sensible laws based on established 
science and proven statistics.
    We also know that marijuana destroys lives and families, 
undermines our economy, and insults our common values. There 
are no sound scientific economic or social reason to change our 
Nation's marijuana policy. Treatment professionals, drug 
education teachers, and the families of those touched by drug 
abuse ask why States should now legalize a Schedule I 
psychoactive drug, given all that we know. My Federal, State, 
and local law enforcement counterparts know all too well the 
devastating effects of drug use and how it extends into so many 
areas of our economy, communities, and families. Even our 
international law enforcement partners question us when we ask 
them to enact and enforce drug laws. They question why we are 
ignoring established scientific facts and the 50-year-old 
international drug treaties while creating new drug 
marketplaces in the U.S.
    Illicit drugs like marijuana threaten our institutions and 
society. By not enforcing our drug laws, we bring these dangers 
to our doorstep. We must send a clear message to the American 
people and ensure our public safety by not abandoning science 
and fact in favor of public opinion. For our part, the men and 
women of the DEA remain committed to enforcing our Federal drug 
laws and protecting our national interest. I thank you for your 
time and look forward to your questions.
    [Prepared joint statement of Thomas M. Harrigan and John F. 
Walsh follows:]

[GRAPHIC] [TIFF] 

    Mr. Mica. Thank you. And we'll hear next from Mr. Walsh, 
Mr. John Walsh, before we get to questions. He's the U.S. 
attorney in Colorado, the Department of Justice. Welcome, sir, 
and you are recognized.


                STATEMENT OF HON. JOHN F. WALSH

    Mr. Walsh. Thank you, Chairman Mica, Ranking Member 
Connolly----
    Mr. Mica. I don't think your mic is on.
    Mr. Walsh. I'm sorry. Good afternoon, chairman. And good 
afternoon, Ranking Member Connolly and other members of the 
committee and other--of the House who are attending here today.
    On behalf of the Attorney General and the men and women of 
the Department of Justice, I appreciate the opportunity to 
testify here today. My testimony is going to focus today on our 
marijuana enforcement efforts, and also the guidance that the 
Department of Justice has issued to all U.S. attorneys around 
the country regarding those efforts. I also appreciate the 
opportunity to discuss our efforts specifically in Colorado to 
ensure that Federal, State, and local law enforcement work 
together effectively to protect public safety and public health 
in the new marijuana enforcement environment that we are 
seeing.
    And I must add, it is a great honor to be here with Deputy 
Administrator Harrigan of the DEA.
    Now, as you know, the relevant Federal statute, the 
Controlled Substances Act of 1970 among other things makes it a 
Federal crime to possess, grow, or distribute marijuana. In 
addition to that, financial transactions involving proceeds 
generated by marijuana-related conduct can form the basis for 
Federal prosecution under money-laundering statutes as well as 
the Bank Secrecy Act, among other statutes.
    Starting with California in 1996, a total of approximately 
21 States--I say that because I've seen 20 and 21 both 
mentioned--have authorized the use of marijuana for medical 
purposes. My State, my home State, Colorado, first authorized 
the medical use of marijuana in 2000, now 14 years ago. And in 
2012, voters in Colorado and in Washington State approved State 
constitutional changes that legalized recreational marijuana 
and also established State regulatory systems to address the 
recreational marijuana market. Federal law enforcement of 
course has always focused on sophisticated drug trafficking 
organizations while State and local authorities have focused 
most of their drug enforcement activity on more localized 
actions, even though that often includes drug trafficking 
organizations. During this entire period, the Department of 
Justice has worked closely with its State and local partners to 
ensure the public safety and health of citizens in every State.
    I cannot overstate the importance of strong partnerships 
and coordination between Federal, State, and local law 
enforcement today in this changing environment. For that 
reason, we in Federal law enforcement in Colorado, and I know 
also in Washington State, are working hard with our State and 
local law enforcement partners to ensure that our efforts are 
mutually supportive. For the overall regulation of marijuana to 
be effective and for public safety and health to be protected, 
all levels of law enforcement are going to have to work 
together.
    Now, as you also know, in August of 2013, the Department 
issued marijuana enforcement guidance to Federal prosecutors 
across the country. On that same day, the Attorney General 
spoke to the Governors of Washington and of Colorado and 
informed them that the Department as part of its policy 
expected the States that had legalized recreational marijuana 
to implement strong and effective regulatory and enforcement 
systems to fully protect against the public health and safety 
harms that are the focus of Federal marijuana enforcement. He 
also indicated that the Department would continue to 
investigate and prosecute cases in which the underlying 
marijuana-related conduct implicated Federal interests.
    So, specifically, in that August guidance from Deputy 
Attorney General Jim Cole, the Department outlined eight 
Federal enforcement priorities in the marijuana arena. My 
office has historically devoted a great deal of time and effort 
to prosecuting cases in exactly those eight priority areas. For 
example, we have targeted enforcement actions against marijuana 
businesses located near schools which implicates the 
possibility of sales, whether directly or indirectly to kids.
    My office warned dozens of those businesses through a 
letter campaign in 2012 and 2013 that their agencies violated 
Federal law. And every one of those businesses that received a 
letter closed without the need for further litigation by our 
office.
    We also continue to actively investigate and prosecute 
cases involving international smuggling and interstate shipment 
of marijuana, marijuana grows where violence and firearms are 
involved, marijuana grows on public lands, an issue in a State 
like Colorado that has as much Federal public land as we do, 
and cases with potential organized crime involvement in 
marijuana businesses.
    Now, consistent with the guidance we have received from the 
Department, the U.S. Attorney's Office in Colorado does not now 
and has not in my time there ever focused on prosecuting 
individuals who are using marijuana in personal-use amounts on 
private property.
    In addition, in February of 2014, the Department issued 
guidance to all Federal prosecutors regarding marijuana-related 
financial crimes. That guidance seeks to mitigate the 
legitimate public safety concerns created by high-volume, cash-
driven businesses that do not have access to banking or the 
financial system, but at the same time, to ensure that 
organized crime and other cartel groups are not able to use 
marijuana businesses as a pretext or a cover to launder funds 
obtained in other criminal conduct, sale of other drugs, and 
things of that sort.
    Now, in Colorado, the U.S. Attorney's Office and the Drug 
Enforcement Administration work together closely to protect the 
health and safety of every citizen. I want to take this moment 
to earnestly thank Federal prosecutors in my office, DEA agents 
in Colorado, but also Federal prosecutors throughout the west, 
and particularly, in this instance, and DEA agents who are 
dealing with this rapidly evolving and changing set of 
marijuana enforcement issues. I also want to thank our many 
State and local partners, sheriffs, police chiefs, and State 
regulators for their dedicated work in trying to address this 
issue.
    With our collective effort, and only with our collective 
effort, we can succeed in implementing strong and effective 
marijuana enforcement and regulatory systems in practice on the 
ground.
    Thank you very much. And I look forward to our discussion.
    Mr. Mica. Thank you. And we'll get a few questions in and 
turn to members to ask them.
    Let me let Mr. Harrigan with a couple of them. Since I 
guess the first announcement that came out on 2013--2013 
August, when DOJ said, again, from the enforcement end, they 
were not going to pursue some of these cases, what's happened? 
What's the impact?
    Mr. Harrigan. Well again, thank you for the question, 
chairman. Again, as U.S. Attorney Walsh alluded to in his 
opening statement, DEA works very closely with our United 
States Attorneys, whether it's in Colorado, whether it's in the 
State of Washington. DEA, because of limited resources, 
throughout the years, we have always focused on the most 
prolific drug-trafficking organizations in the United States 
and in the world, principally those having the greatest impact 
on the United States.
    So, that being said, based upon Deputy Attorney General 
Cole's memo, to date, there has been little impact on our 
enforcement actions again because we continue to identify and 
investigate the most prolific drug-trafficking organizations 
impacting our cities. We do not go after those abusers, users 
of drugs. We don't go after users claiming marijuana use for 
medical reasons. So again, sir, as of now, there has been 
little effect or impact on DEA's operations.
    Mr. Mica. Mr. Walsh, you've had to deal with this, and--
and, you know, there--that we've had conflicts and comments 
from various agencies at the Federal level. How do you see this 
coming down? The President said he thought Congress could act 
to change the scheduling. But the administration also has that 
authority to change the scheduling. We have more States now 
adopting medical use, and it looks like recreational use isn't 
too far behind. What's your take?
    Mr. Walsh. Thank you, Mr. Chair. It's an interesting set of 
circumstances that we have in Colorado. One of the, really, the 
foundations for the guidance that the Department issued in 
August of 2013 was the idea that a State that legalizes 
marijuana, whether for medical or for recreational purposes, 
needs to establish an effective and robust regulatory system on 
the ground. In other words, that if a State is going to do 
that, there is the risk that serious and significant Federal 
interests are going to be implicated unless the State takes the 
necessary steps to ensure that the regulatory system is 
effective. So let's start with that. How does that play out on 
the ground in our work?
    In order to be sure that in Colorado, which is my home 
State and that I love deeply, is not negatively impacted by the 
legalization of recreational marijuana, we want to be sure that 
what we do on the Federal side, working closely with the DEA, 
is supportive of what State regulators and State law 
enforcement officials are trying to do to make sure that the 
situation is effectively and tightly regulated on the ground.
    So my message to my law enforcement partners throughout the 
State of Colorado, since August of 2013, has been that we have 
to work together. We have to work together carefully, despite 
the fact that the laws differ at the State and Federal level, 
we have to work together to make sure that those common goals 
that we all share that I think are embodied pretty well in the 
eight guidance priorities that we were given in August of 2013 
are achieved.
    Mr. Mica. Well, Mr. Blumenauer, in our previous hearing, 
talked about the huge amounts of cash and the illegality of 
processing that money through the current financial system.
    And then in February 2014, DOJ guidance changed and came 
out with other--other guidelines. Can I take my marijuana- 
gained cash and run it through the traditional banking system, 
and am I going to jail? Or is it now acceptable financial 
transaction?
    Mr. Walsh. Mr. Chair, I think it's important to remember 
that the guidance that was issued was really in the form of two 
different memos. There was a Department of Justice memo that 
went from the Deputy Attorney General to all Federal 
prosecutors on the question of financial crimes related to 
marijuana. And what that memo did, in essence, was to say that 
the same eight priority factors that we apply in considering 
marijuana enforcement generally apply to banking crimes as 
well. So that's step one.
    The other memo that came out, which was step two, was 
actually issued by the Department of Treasury, FinCEN. And what 
FinCEN's guidance--that memo was directed to banks. And 
essentially--and I don't want to step into the Department of 
Treasury's lane on this--but essentially, set out the rules of 
the road for how a bank, if it were to choose to do business 
with a marijuana-industry business licensed in Colorado, for 
example, what reporting obligations would it--should it follow 
in order to be in compliance with its Bank Secrecy Act 
obligations?
    So we have those two different components of that guidance. 
Nothing in either of those memos says to a bank, you should or 
shouldn't actually do business with a marijuana business. On 
the other hand, it does try to clarify the circumstances under 
which a bank could, in fact, proceed in doing business with a 
marijuana licensed business in a State like Colorado.
    Mr. Mica. Okay. Mr. Harrigan, you just heard Mr. Walsh. And 
it sounds like that from a criminal standpoint you still go 
after people who are dealing and trading in ``illegal terms.'' 
There's some--now that we've got a new definition, I guess 
there is legal business activity, medical marijuana, and 
recreational. We got the second part of the enforcement. What's 
happening in regard to your enforcement responsibilities to 
carry out these sort of dueling guidances?
    Mr. Harrigan. Well, again, chairman, it's a--a bit 
premature now to comment exactly what's happening. Because, 
again, this is just about 2 months since these initiatives were 
put into practice. However, let me say this----
    Mr. Mica. So you're still scratching your head?
    Mr. Harrigan. I scratch my head every day, sir; you have no 
idea.
    Mr. Mica. I shouldn't have interjected.
    Mr. Harrigan. That's okay. You're the chairman; you can do 
anything you want.
    Cash----
    Mr. Connolly. For God's sake, don't tell him that.
    Mr. Harrigan. He asked me to say that.
    Cash, as you very well know, is--is the driving force for 
these drug-trafficking organizations. The way I look at it, 
drug-trafficking organizations aren't particularly in the 
business to traffic drugs. They are in the business to make 
money. So any time they can exploit, whether it's a change in 
State laws, a changing in the banking industry, and what is 
legal and is not illegal, they are going to exploit it.
    We have right now, and obviously because they are ongoing 
investigations, I cannot comment. I'm not at liberty to comment 
on them. But we've already seen organizations, foreign drug-
trafficking organizations attempting to exploit these new 
banking laws.
    So, again, as John just mentioned, we will work very 
closely with Treasury, with the banking industry, and with the 
U.S. Attorney's Office. And we'll have to make a decision right 
now on a case-by-case basis.
    Mr. Mica. Sounds like we may be doing some additional 
hearings.
    Mr. Connolly, I yield to you.
    Mr. Connolly. Thank you, Mr. Chairman. I thank you both for 
your testimony.
    I want to deal with two things: Efficacy and equality. 
Equal protection under the law. And when you look at both of 
those two E words, one cannot be but troubled by the facts at 
hand with respect to marijuana, particularly, it seems to me.
    Mr. Harrigan, if I understood your testimony correctly, 
your view is it's the soundness of our current policies and 
laws is beyond question, and we just need to buckle down and do 
more of it.
    Mr. Harrigan. Well, sir, the bottom line is this: I am not 
a medical or a health care professional, I am a career cop. I 
am a special agent.
    Mr. Connolly. But you asserted in your testimony, Mr. 
Harrigan, that the science, you invoked the word ``science.'' 
Tell us about that.
    Mr. Harrigan. Absolutely. And again, I base my opinion on 
what science has said. Whether it's the AMA, the American 
Medical Association, the American Cancer Society, and a whole 
host of other health care organizations who have said that 
marijuana is dangerous and it deserves to be in Schedule I. 
That is what I base it on, sir.
    Mr. Connolly. I have to interrupt a little bit. Forgive me. 
Because I don't have all the time in the world. And I really do 
want to dialogue with you on this.
    I understand you're invoking them. But you would agree, 
or--no. Would you agree that marijuana is certainly not in the 
same category as heroin in terms of its danger?
    Mr. Harrigan. Mr. Connolly, and, again, these decisions 
aren't made in a vacuum. When I say DEA, also HHS is involved, 
FDA and NIDA. However, the way it is--again, it is a Schedule I 
controlled substance.
    Mr. Connolly. I understand. How many people died from 
marijuana overuse last year?
    Mr. Harrigan. That I don't believe many, sir.
    Mr. Connolly. Heroin?
    Mr. Harrigan. I would assume thousands.
    Mr. Connolly. A lot?
    Mr. Harrigan. Yes, a lot.
    Mr. Connolly. Even legal prescription drugs, we have an 
overdose every 19 minutes in the United States of America. 
Nobody can come up with any comparable statistic. I'm not 
saying marijuana, therefore, you know, is the best thing since 
sliced bread. But it might suggest that treating it as a 
controlled substance, like we do tobacco or alcohol, may be a 
better way of going, especially if you're worried about 
organized crime.
    The Chairman--the other chairman, excuse me, Mr. Massie. 
The other chairman read into the record contrasting statistics 
for youth use of marijuana versus tobacco. And I would simply 
suggest, yeah, what's the difference? The difference is tobacco 
is regulated and taxed, and we can leverage that fact and 
actually affect positively behavior.
    Marijuana is neither taxed nor regulated. And as a result, 
our ability to influence young people's behavior and their use 
of this illicit drug is quite limited.
    Now, but the question is, is it working? We've had a war on 
drugs since Richard Nixon. So is marijuana use in America, 
after all your fine efforts as DEA and that of other law 
enforcement agencies, is marijuana use in the United States on 
the way down or on the way up?
    Mr. Harrigan. I believe recent statistics will show it's on 
the way up.
    But if I can say, sir, just two things. Since 1979 through 
2012, overall drug use has declined in this Nation by 35 
percent. I think that's pretty significant. And, again, we're 
not going to arrest ourselves out of this problem. I absolutely 
agree with you. But it must be a holistic approach.
    Mr. Connolly. What percentage, because we're talking about, 
I'm going to get to you Mr. Walsh, but we're talking about 
money. The role of money.
    Mr. Connolly. What percentage, because we are talking 
about--and I am going to get to you, Mr. Walsh--but we're 
talking about money, the role of money. And, of course, you 
know, it's all cash. Druggies don't take credit cards. What 
percentage would you guess of total illicit narcotics traffic 
money is marijuana related?
    Mr. Harrigan. Well, that's very difficult, Mr. Connolly, to 
speculate. Again, most of the drug-trafficking organizations 
that DEA are involved with and with respective U.S. Attorney's 
Office are multinational cartels, they're poly drug. So it's 
not just marijuana. Marijuana without question generates a 
great deal of revenue for these drug trafficking organizations, 
but again, they're not a one-trick pony, if you will. They also 
traffic in cocaine, in heroin, in methamphetamine and obviously 
in marijuana as well, so it's very difficult to pinpoint 
exactly how much is generated from marijuana.
    Mr. Connolly. Mr. Chairman, I think we agreed on 2 more 
minutes of my--your----
    Mr. Massie. [Presiding.] Without objection.
    Mr. Connolly. I thank the chair.
    Mr. Walsh, the other issue, inequality. Efficacy I'll leave 
where we just left it. Count me a skeptic, Mr. Harrigan. I 
think after almost half a century of experience, I don't think 
we're winning this war, and I don't even know if this is a war 
to be won with respect to marijuana.
    Mr. Walsh, are you troubled by the statistics I read into 
the record with respect to arrests and incarceration rates, the 
inequality among whites and nonwhites?
    Mr. Walsh. Mr. ----
    Mr. Connolly. You have to turn on your----
    Mr. Walsh. Oh, I'm sorry. I have to leave that on, I think.
    Congressman, you know, the Department of Justice is focused 
on the question of ensuring equity in the way that the drug 
laws are enforced. In fact, last August, right around the time 
the marijuana enforcement guidance was issued, the Attorney 
General announced his Smart on Crime initiative. In part, that 
was intended to make sure that we in the Federal Government 
have a balanced approach, where enforcement remains, anti-drug 
enforcement remains an important component, but we also build 
into it prevention----
    Mr. Connolly. Mr. Walsh, again, because of the limited 
time, I thank you, and that's aspirationally very noble, but 
the record is wretched.
    Mr. Walsh. It--and I----
    Mr. Connolly. We certainly have not lived up to our own any 
kind minimum standard of equality with respect to the meting 
out of justice on this subject on racial lines, have we?
    Mr. Walsh. I think that there is room to be concerned about 
the way that has played out in effect, but I do want to say, 
Congressman, something very important. I have worked for 
decades in Federal law enforcement, and I can tell you that the 
law enforcement agents at DEA, assistant U.S. Attorney's all 
across the country work very hard to enforce the laws that are 
on the book, and they are very diligent and they are very 
careful not to enforce them in a way that they believe to be 
disparate.
    If the numbers turn out that way, it's important for us to 
be very careful, because sometimes I think the discussion makes 
it unclear to the public. We have a lot of wonderful public 
servants who are doing the work--this work to protect the 
public, and they will continue to do so----
    Mr. Connolly. Well----
    Mr. Walsh. --but it's not based on race.
    Mr. Connolly. No, it may not be, but it just leads to a--it 
leads to an outcome that most certainly is racially divided in 
very stark terms.
    I want to end with a quote from Rand Paul, Republican 
senator from Kentucky, no liberal. He described this issue as 
the new Jim Crow, and I quote, this is his testimony before the 
Senate Judiciary Committee last year about this issue, ``If I 
told you that one out of three African-American males is 
forbidden by law from voting, you might think I was talking 
about Jim Crow 50 years ago, but I'm talking about today. A 
third of African-American males are prevented from voting 
because of drug convictions.'' He went on to share that the 
majority of illegal drug users and dealers nationwide are 
white, but three-fourths of all people in prison for drug 
offenses are African-Americans and Latinos, despite your 
aspirations, Mr. Walsh.
    Thank you, Mr. Chairman.
    Mr. Massie. Gentleman's time has expired. I now yield 
myself 5 minutes.
    Mr. Harrigan, is it safe to assume, in light of the August 
2013 Department of Justice memo, that as long as States like 
Kentucky have implemented a strong and effective regulatory and 
enforcement system, the cultivation of industrial hemp will be 
permitted by the Department of Justice when in accordance with 
State laws?
    Mr. Harrigan. Well, Mr. Chairman, that is under policy 
review right now at the Department of Justice, so that is 
something we will certainly get back to you on.
    Mr. Massie. Wouldn't it seem reasonable that if they can 
grow marijuana for recreational purposes and medicinal purposes 
in Colorado, that in Kentucky, you could grow hemp, which has 
no psychoactive amount of THC, that in Kentucky, we could grow 
hemp for industrial purposes?
    Mr. Harrigan. Well, again, sir, that is under policy review 
right now at the Department of Justice, and it would be 
premature for me to comment on it before a decision is made.
    Mr. Massie. Do you know when they might have a decision for 
us?
    Mr. Harrigan. No, I don't, but I'd be happy to get back to 
you, sir.
    Mr. Massie. Okay. Thank you very much.
    And that's all the time that I need right now. I'm going to 
yield----
    Mr. Connolly. Wow.
    Mr. Massie. --5 minutes to Mr. Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman.
    Could you--Mr. Harrigan, we didn't get a copy of your--the 
statement that you read. Could you read what you said about 
emergency room visits?
    Mr. Harrigan. Sure. I assume you're referring to and, 
again, point number four, there was a 59 percent increase in 
marijuana-related emergency room visits between 2006 and 2010. 
Marijuana was second only to cocaine for illicit drug-related 
emergency room visits in 2010.
    Mr. Blumenauer. Thank you.
    Mr. Harrigan. You're welcome.
    Mr. Blumenauer. You know, it's interesting, we had, in our 
previous hearing, discussion about emergency room admissions 
for marijuana. Since then, I've been trying to find an 
emergency room doctor who has treated somebody who has been 
admitted for marijuana. They say it's likely that there are 
people who had marijuana in their system, like people could 
have nicotine in their system or have alcohol in their system, 
but I have had numerous conversations with emergency room 
doctors trying to understand what this means.
    I'd respectfully request that you would--I don't want to 
catch you unawares, but I'd like you to provide the committee 
in writing what you're talking about, because it doesn't 
square. Have you talked to an emergency room doctor that has 
had somebody admitted for a marijuana overdose?
    Mr. Harrigan. I have personally not, sir, but again, we'd 
be happy to----
    Mr. Blumenauer. Okay. I don't want to----
    Mr. Harrigan. --get you----
    Mr. Blumenauer. I don't want to trap you.
    Mr. Harrigan. --the statistics.
    Mr. Blumenauer. I don't want to trap you.
    Mr. Harrigan. That's fine.
    Mr. Blumenauer. I want to find out what these statistics 
mean, because emergency room doctors that I talk to think it's 
silly.
    Mr. Harrigan. Actually, sir, this was----
    Mr. Blumenauer. In fact, I----
    Mr. Harrigan. I see--if I could respond to you.
    Mr. Blumenauer. I don't have very much time left. I invite 
you to provide it in writing.
    Mr. Harrigan. Okay.
    Mr. Blumenauer. I want to ask how many people died from 
marijuana overdoses?
    Mr. Harrigan. I'm not aware of any, sir.
    Mr. Blumenauer. You put out information, for example, on 
prescription drug overdoses, right?
    Mr. Harrigan. Yes.
    Mr. Blumenauer. 16,000 people----
    Mr. Harrigan. Yes, we did.
    Mr. Blumenauer. --last year. I would like you to provide, 
again, I don't want to trap you, but in writing, so it can be 
vetted, why you don't know whether or not anybody died from 
marijuana overdose.
    Third, I would love to have the evidence from the AMA that 
you cited that AMA says that marijuana should be a Schedule I 
drug. Again, I have not seen that. It would be very helpful to 
be able to have this.
    My last question, I'd like to follow up a little bit with 
my friend from Kentucky--because we've got a massive drug 
problem in this country, we're spending $25 billion, drug use 
is going up, we're shifting money to drug cartels--how does the 
DEA justify working against the legalization of industrial hemp 
in this whole range of activities that you are tasked with 
protecting the American public?
    Mr. Harrigan. Well, again, sir, it is not just DEA. There 
are several components----
    Mr. Blumenauer. No. I'm asking specifically about DEA----
    Mr. Harrigan. Well, we're----
    Mr. Blumenauer. --because you're from DEA.
    Mr. Harrigan. Yes, sir. We are involved in the 
decisionmaking process. It simply is that. We will provide 
detailed documents, information that we have, but it's part of 
an overall decision that will eventually be made by the 
Department of Justice.
    Mr. Blumenauer. How does DEA justify taking scarce 
resources when we have 16,000 people dying from drug overdose, 
when we've got a heroin epidemic that is worrying in 
communities across the country, how can you justify devoting 
scarce resources to opposing industrial hemp legalization?
    Mr. Harrigan. Sir, I don't a quite understand what you mean 
by sending scant resources to do this. We have people who are 
involved in the process. It's not as though it is requiring our 
agents out on the street----
    Mr. Blumenauer. Again, I don't want to----
    Mr. Harrigan. --to enforce this.
    Mr. Blumenauer. Again, I don't want to trap you, but I 
would like to be able to do a deeper dive on that. The DEA, 
according to published reports, was circulating on Capitol Hill 
when Mr. Massie and I had an amendment that would allow just 
research on industrial hemp, had talking points from the DEA 
widely circulated for people to argue against a legislative 
initiative. Now, there are certain arguments that one might 
make about agencies lobbying, and I don't want to get there, 
but it just speaks to me in terms of a serious question about 
prioritization.
    You've got a tough job. We don't want drugs killing our 
people. Marijuana doesn't appear to be killing our people. 
We've got real problems ahead of us. I'd like to have answers 
to my questions so that I can understand how DEA prioritizes 
our scarce resources.
    Mr. Harrigan. I'd be happy to.
    Mr. Blumenauer. Thank you very much. I really appreciate 
it.
    Mr. Harrigan. Thank you.
    Mr. Massie. I suppose I can yield myself more time if we 
have no other Republicans here right now.
    I'll yield myself 5 minutes.
    Question, what is the DEA's role and responsibility in 
Federal marijuana enforcement in the two States that--where 
it's been legalized?
    Mr. Harrigan. Again, as I had alluded to earlier, sir, DEA 
is the enforcement arm of the President's National Drug Control 
Strategy. We have agents in--obviously, in the States of 
Colorado and Washington, but again, due to limited resources 
and prioritization, we go after the world's most prolific drug-
trafficking organizations, whether they're trafficking cocaine, 
marijuana, heroin, methamphetamine. So, again, we continue to 
do what we've done for the past 40 years, since DEA became an 
agency in 1973, under President Nixon. We continue to target 
those that have--those organizations that have the biggest 
impact on our citizens.
    Mr. Massie. What percent of your budget is spent on 
marijuana laws, enforcement of those?
    Mr. Harrigan. Sir, that is very difficult to estimate. 
Again, these organizations that we target, we investigate and 
we prosecute with our friends from the U.S. Attorney's Office 
and State and local jurisdictions are poly drug. Very rarely do 
you get an organization that's only going to traffic in 
marijuana. Typically they'll traffic, like I said, poly drugs, 
whether it's cocaine, heroin and marijuana. So, again, 
percentage-wise, it would be very difficult to come up with a 
precise amount, but again, these organizations make quite a bit 
of money from marijuana trafficking.
    Mr. Massie. Well, in speaking to marijuana specifically, 
what percent of your budget is used for marijuana eradication 
efforts?
    Mr. Harrigan. Well, again, we get approximately through the 
DCE/SP program, which I had mentioned in my opening statement, 
Domestic Cannabis and Eradication/Suppression Program, we get 
approximately $17 million, but of that, it goes to our State 
and local counterparts, and that's used for things such as air 
wing support helicopters, training, local police overtime for 
State and local officials, so that money goes out to the 
respective States in that manner.
    Mr. Massie. Do States like Colorado, for instance, forego 
that money now?
    Mr. Harrigan. No, they don't.
    Mr. Massie. So they're still accepting marijuana 
eradication funds?
    Mr. Harrigan. Yes, they do. DCE/SP funding, sir.
    Mr. Massie. Okay. That's all the questions that I have.
    Mr. Connolly. Mr. Chairman, would you----
    Mr. Massie. Yes, sir.
    Mr. Connolly. --yield for a second.
    Mr. Massie. I will.
    Mr. Connolly. Thank you.
    I think your questioning is very apt. I think we need to 
know. I think DEA and other law enforcement agencies are going 
to have to disaggregate what do you spend on marijuana 
eradication? What do you spend on marijuana law enforcement 
versus other kinds of drugs? I understand at times it can be 
conflated, but, for example, wouldn't it be nice to know that 
when we're dealing with illegal cartels, organized crime, what 
percentage of their revenue is based on marijuana? You know, 
because the argument has been made before that, well, illegal 
syndicates, it's hard to do. Well, in prohibition, we did it. 
When we ended prohibition, we didn't legalize prostitution and 
illicit gambling and other sources of revenue of organized 
crime. So I think it would be a very good thing to know so we 
understand, again, going back to that word ``efficacy,'' how 
effective are our efforts in fact and how does it guide us as 
we consider policy changes moving forward?
    So I thank you thank you for your question, Mr. Chairman.
    Mr. Massie. Thank you.
    Mr. Harrigan. So, Ranking Member, if I may respond, and 
it's a very good question and we do--we would be able to come 
up with some statistics where--cases where we had resources, 
manpower, funding directed specifically at marijuana 
organizations, but again, the overwhelming majority of the 
time, you know, the same organizations that traffic marijuana 
traffic, you know, the cocaine, the heroin, so we're not going 
to break up these organizations. It doesn't make sense from an 
investigative standpoint and from a prosecutor's standpoint, 
either, but we will certainly work on getting you some numbers, 
Ranking Chairman.
    Mr. Massie. Could you give us a rough idea of the breakdown 
between domestic efforts and international efforts or efforts 
at the border?
    Mr. Harrigan. Yeah. In terms of just--I need just a little 
more specificity, sir.
    Mr. Massie. Marijuana, the war on--yeah, war on drugs as 
pertains to marijuana.
    Mr. Harrigan. Well, first, if I may mention, the war on 
drugs, we don't--DEA, many of our State and local counter 
parts, I don't want to speak for the U.S. attorneys either, but 
nobody uses ``war on drugs'' anymore, to be quite honest with 
you. We've come to the realization years ago that we're not 
going to arrest ourselves out of this problem. We have to work 
with Members of Congress, with healthcare professionals, with 
medical professionals, with teachers. That's the way you get 
the word out.
    Now, as far as a war on drugs, you know, maybe some 
countries around the world, you could classify it as a war on 
drugs where maybe drug--where narcotics isn't a law enforcement 
matter, maybe it's a national security matter; then perhaps 
it's a war on drugs, but here, sir, I contend strongly it is 
not a war on drugs.
    Mr. Massie. Okay. Back to the original question. Do you--do 
we spend money--do we spend taxpayer dollars trying to 
eradicate marijuana overseas outside of our borders?
    Mr. Harrigan. Eradication overseas?
    Mr. Massie. Yes.
    Mr. Harrigan. No. And, again, you would have to have ask 
State Department more specifically for that. I know there are 
programs, INL over at the Department of State, that provides 
funding to various countries around the world.
    Mr. Massie. I'd presumed you'd be coordinated with them.
    Mr. Harrigan. Well, some of them, yes, absolutely, but, 
again, they're in countries--we're not in every country that 
State Department is. We have, I believe it's 87 offices in 68 
countries around the globe, so obviously, that is not an all-
inclusive list.
    Mr. Massie. My time has expired.
    And I'll yield 5 minutes to Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Massie. Thank you.
    First of all, I'd like to mention that one of the smartest 
men in the world is Dr. Francis Collins, who is the head of the 
NIH and head of the human genome project. He said this weekend 
he'd like to study marijuana a little more because he's 
concerned about the possibility, possibility, never shown, of 
lung cancer because people inhale deeply and because he thinks 
youth shouldn't use it, which I certainly agree with--Mr. 
Blumenauer made that point--because IQ's have gone down for 
kids who smoked marijuana. Indeed, they shouldn't do tobacco, 
alcohol, and some say seen and not heard, but that's neither 
here nor there.
    But he said, I don't want to sound like one of these people 
that says marijuana's evil; I don't think it is. That's Dr. 
Francis Collins, the number one maybe in--one of the most 
intellectual, brilliant people in the world on research science 
in these things, A.
    B, Mr. Harrigan, you've been in this business now for close 
to 30 years? Since 1987, you started at the DEA? How have you--
--
    Mr. Harrigan. Yes, I started when I was 3 years old.
    Mr. Cohen. Right. How have your views changed on marijuana 
in those 30 years?
    Mr. Harrigan. To be quite honest with you, sir, very 
little.
    Mr. Cohen. I was afraid of that.
    Mr. Harrigan. I see the devastation.
    Mr. Cohen. That's enough. The fact that it's changed very 
little says a lot.
    Mr. Harrigan. Do you want me to respond to your question, 
sir?
    Mr. Cohen. No, sir, because we have limited----
    Mr. Harrigan. I'd be happy to.
    Mr. Cohen. We have--I know you would. We have limited time. 
The fact that it's changed very little shows that you haven't 
kept up with society. You haven't kept up with science, and 
it's part of the problem----
    Mr. Harrigan. Science and medical I do keep up with, sir.
    Mr. Cohen. All right. You mentioned in your statement 
that--and read me back that sentence, ``It insults our common 
values.'' I want you to read me what you said.
    Mr. Harrigan. Yes, sir. I believe this is the section 
you're referring to: We also know that marijuana destroys lives 
and families, undermines our economy and insults our common 
values.
    Mr. Cohen. What are the common values it insults?
    Mr. Harrigan. For me, sir, as----
    Mr. Cohen. No. For--for----
    Mr. Harrigan. I will tell you. I will till if you let me--
--
    Mr. Cohen. You said, ``We know.'' You're speaking as the 
clairvoyant voice of America. What are our common values?
    Mr. Harrigan. Well, I would venture to guess all of law 
enforcement, just about every single parent out there as well. 
Again----
    Mr. Cohen. Every single parent?
    Mr. Harrigan. Yes, every single parent. It's based on, 
again, medical, sir, and scientific fact, not public opinion. 
Okay. I am not the medical expert, as I said before. Everything 
that I do is based on my 30-plus years of law enforcement.
    Mr. Cohen. Let me stop you for a minute. You said it 
insults our common values. What is the value it insults?
    Mr. Harrigan. What is the value it insults?
    Mr. Cohen. Yeah. You said this----
    Mr. Harrigan. Do we have all--I could easily go on and on, 
Congressman Cohen.
    Mr. Cohen. You haven't started yet.
    Mr. Harrigan. Well, if you continue to interrupt me, I 
would be happy to address your question.
    Mr. Cohen. Answer my question, sir.
    Mr. Harrigan. Yes, it--you know what, from a bare minimum, 
as a parent, from--as a former educator, as a law enforcement 
official for all these years, I have seen the devastation that 
marijuana has caused not only on individuals, on families and 
communities.
    Mr. Cohen. And that--what's our common value, though? You 
still haven't stated the common value. And the fact is 55 
percent of Americans are in favor of decriminalization or 
legalization. I have got to imagine some of them are parents or 
the other 45 percent are really active. I mean, your statement 
that all parents are against this is ludicrous. What do you 
think, people that are in favor of decriminalization or----
    Mr. Harrigan. I didn't say----
    Mr. Cohen. --policy----
    Mr. Harrigan. I said----
    Mr. Cohen. --don't procreate?
    Mr. Harrigan. I said most parents----
    Mr. Cohen. You said all.
    Mr. Harrigan. --would be opposed to this.
    Mr. Cohen. And most is wrong, too; 55 percent of America.
    Mr. Harrigan. Are they all parents?
    Mr. Cohen. I don't think that the polls went into that, but 
I suspect a whole bunch of them were. It's not just the 
psychiatrists and the Jews and the single people. Let's get 
beyond Richard Nixon.
    Let me ask you this. Let me say this to you: Recreational 
use, if you look in the Wikipedia, recreational drug use is 
defined as the use of a drug with the intent of enhancing life, 
increasing euphoria, blocking unhappy memories, or creating 
pleasure.
    It's your agency that talks about recreational marijuana. 
I'm not quite sure recreational. To me, that's badminton or 
bowling or golf. But if it's in enhancing euphoria, blocking 
unhappy memories or creating pleasure, does that insult our 
values?
    Mr. Harrigan. Yes, it does.
    Mr. Cohen. So euphoria is not an American value, and 
unhappy memories being blocked is not an American value, or 
creating pleasure?
    Mr. Harrigan. Not through smoking a marijuana joint, in my 
opinion, sir.
    Mr. Cohen. In your opinion, yes, sir.
    Mr. Harrigan. Yes. And, again, I am neither a medical 
professional or a healthcare professional.
    Mr. Cohen. How much money has the DEA gained from asset 
forfeiture involved in marijuana cases?
    Mr. Harrigan. Again, that would be difficult to----
    Mr. Cohen. Well, then get the information for me, please. I 
want to know how much money you benefit, the DEA, from asset 
forfeiture laws, which make for cash register justice, from 
enforcing marijuana laws. That would be very interesting for us 
to know. And----
    Mr. Harrigan. I will be happy to get that.
    Mr. Cohen. Have you read the Schaefer Commission Report?
    Mr. Harrigan. No, I have not, sir.
    Mr. Cohen. Forty years old, still valid. I recommend you 
read it. I'd advise you to take a look at it.
    Mr. Harrigan. I certainly will.
    Mr. Cohen. Thank you. And let me ask one last question, 
Mr.--give me time, just one second.
    Your boss, Ms. Leonhart, spoke at the winter meeting of the 
Major County Sheriffs Association, and she spoke about the 
President and his remarks that marijuana's not more dangerous 
than alcohol, and she said her lowest point in 33 years at the 
DEA was learning that a hemp flag was flown over the Capitol on 
July the Fourth. Do you agree that flying a hemp flag over the 
Capitol should have been her lowest moment, or maybe the 
killing of a DEA agent or maybe somebody who died of a heroin 
overdose would have been--should have been her lowest moment?
    Mr. Harrigan. Yeah. Well, I don't know if she said it 
exactly as you quoted it.
    Mr. Cohen. This is a quote.
    Mr. Harrigan. But it is troubling. I absolutely agree with 
the administrator.
    Mr. Cohen. And do you disagree with the--do you agree with 
her that marijuana is more--is not more dangerous than alcohol?
    Mr. Harrigan. Again, marijuana is a Schedule I controlled 
substance that Congress has passed, Congress has agreed to. I 
am----
    Mr. Cohen. We're not talking about that.
    Mr. Harrigan. --the enforcement arm.
    Mr. Cohen. Marijuana as a--standing on its own, is it worse 
than alcohol, that kills tens of thousands of people and causes 
much violence and cirrhosis of the liver and the DT's?
    Mr. Harrigan. Again, marijuana is a Schedule I controlled 
drug.
    Mr. Cohen. You're not going to answer the question.
    I yield back my time.
    Mr. Mica. [Presiding.] So that was a--did you say--was that 
over the Capitol or the White House that they flew the hemp 
flag?
    Mr. Cohen. Best of my knowledge, it was the Capitol.
    Mr. Mica. Okay. Well----
    Mr. Cohen. Give them enough hemp, and they'll hang 
themselves.
    Mr. Mica. Well, just part of our discovery effort here. 
Interesting.
    What we're going to do is I've got a--we've got a couple of 
questions. I'll yield to anyone else who may have some wrap-up 
questions.
    We got into--well, Mr. Harrigan, you said something, too, 
that interested me. You said the same people that are involved 
in--and I can't remember whether you said cocaine, heroin, but 
other tough, maybe it was meth, are--were also marketing 
marijuana and that this is--that was the indication I got. I 
don't know if that's what you meant. And that the same--I 
think--I thought you said the same people are involved.
    So is that the case? And--you see this from a law 
enforcement standpoint. Is marijuana sort of a sideline with 
bad guys who are dealing this--these other drugs?
    Mr. Harrigan. Well, Chairman, what we've seen time and time 
again, again, DEA, as I said a few times, we go after the worst 
of the worst when it comes to drug trafficking organizations, 
we call them CPOT's, consolidated priority organization 
targets. It's the old--we used to use kingpins. So, again, what 
we've seen----
    Mr. Mica. But in the illegal substances, the tough--I mean, 
hard, hard drugs, though, you were talking about it's the same 
people dealing?
    Mr. Harrigan. Yeah. Principally what we see, sir, these 
organizations, because, again, marijuana is a huge revenue 
generator, so----
    Mr. Mica. Okay. Now, most of that marijuana, has that been 
coming from Mexico----
    Mr. Harrigan. Yes.
    Mr. Mica. --into the United States?
    Mr. Harrigan. Yeah. What we see----
    Mr. Mica. Now, you're seeing a shift now since----
    Mr. Harrigan. That's right.
    Mr. Mica. This reminds me a little bit when--some time ago 
when I dealt as chair of criminal justice drug policy, the 
Dutch liberalized their laws and then the Netherlands became, 
like, the narcotics capital of Europe and stuff went in there. 
I remember sitting with the minister of justice, I think in the 
Hague, and they had opened this Pandora's box, and it came back 
to haunt them. Then they came back and criminalized--I mean, 
they cracked down, because it had just attracted other 
elements, too, in addition to, you know, they have a very 
liberal marijuana policy.
    So what about, like, is this encouraging--would this 
encourage people to go to Colorado and start farms? And it's 
going to cut into the Mexican market, but are we seeing yet or 
do you think we'll see domestic production now in the states 
with the liberalization? And that's going to be hard to contain 
in borders since, again, it's a fairly, oh, transferrable 
commodity. What do you--where are we, and what do you think 
we're going to see?
    Mr. Harrigan. Well, Chairman, you sort of stole a little 
bit of my thunder there, because you're exactly right. We're 
seeing an increase in domestic production as well. Now, we--the 
majority of the heroin that's seized here comes from Mexico, 
but typically, that is low grade marijuana. I'm sorry. 
Marijuana, I meant. It's low grade marijuana. We have seen--we 
have information that the Mexican cartels are actually trying 
to improve the THC content to, again, counter----
    Mr. Mica. Compete, yeah.
    Mr. Harrigan. That's exactly right, sir. So, again, we're 
seeing an increase grown on private lands and indoor grows as 
well. We're seeing a little decrease of growing marijuana on 
public lands, but we have seen an uptick on marijuana grows on 
private lands under the guise usually of medicinal use and as 
well as indoor grow operations.
    Mr. Mica. Okay. Then a couple of other little things. Now, 
we've seen the shift in youth from tobacco--Mr. Connolly and I 
were talking about it. And probably the marijuana is getting 
cheaper, because the tobacco's taxed and also our programs have 
been geared to stopping that, but now one of you testified, 
too, that it looks like that marijuana abuse in high school is 
exceeding tobacco abuse. Is that the case? Mr. Harrigan, are 
you seeing that?
    Mr. Harrigan. Yes, sir.
    Mr. Mica. Mr. Walsh?
    Mr. Walsh. I don't know that particular statistic, but it 
is a concern to us that there is, in fact, a rise in marijuana 
use in high schoolers.
    Mr. Harrigan. Yeah. Sir, Chairman, if I could just clarify.
    Mr. Mica. Yes.
    Mr. Harrigan. I guess what you had said, tobacco versus 
marijuana. That, I am uncertain as well. What we have seen is 
an uptick in marijuana use amongst high schoolers.
    Mr. Mica. And we've heard the citations. I think the 
ranking member gave citations about the decrease and success 
we've had in tobacco.
    Mr. Harrigan, I hate to put you on the spot, but welcome to 
a congressional hearing. Schedule I, what's your 
recommendation?
    Mr. Harrigan. Well, again, sir, it's not made in a void, 
the determination of a drug in Schedule I. Typically what 
happens, you know, a petition will be submitted. There will be 
an eight-factor analysis by DEA. And then HHS will receive it, 
and they have their medical experts, their scientists do an 
eight-factor analysis as well.
    Mr. Mica. Is that ongoing now or does anyone know? Is 
anyone----
    Mr. Harrigan. As far as marijuana. I am not aware of any 
pending application, sir. We--DEA has----
    Mr. Mica. But you would recommend against it, changing it 
from Schedule----
    Mr. Harrigan. Yes. Absolutely.
    Mr. Mica. Mr. Walsh?
    Mr. Walsh. Chairman, there's a process, and it's--it goes 
to HHS and the FDA----
    Mr. Mica. Right.
    Mr. Walsh. --for recommendation back to the DEA 
administrator. And at this point, I believe there may be a 
petition pending. I'm not 100 percent.
    Mr. Mica. So it would come back to you. Would you have 
final authority or just you weigh in?
    Mr. Harrigan. Well, again, yes, sir. We base it--as John 
just alluded to, we base it on recommendations, too, from HHS, 
from FDA and NIDA. The administrator will take it under 
consideration.
    Mr. Mica. I just got an email as we're talking that the 
District of Columbia has just voted to, I guess, liberalize 
some of its marijuana policy as we're holding this hearing. I 
hope we didn't influence them, but it looks like the conflict 
is--and the chaos, again, in policy is becoming an even wider 
spread here.
    Mr. Walsh. Mr. Chairman, if I could----
    Mr. Mica. Yes.
    Mr. Walsh. --make one comment about the scheduling process. 
It goes to the FDA, recommendations come back----
    Mr. Mica. Okay.
    Mr. Walsh. --based on a series of factors that include 
efficacy as well as the potential for abuse. Then it comes back 
to DEA. And the administrator, I believe, has been delegated 
the authority to make the final decision by the Attorney 
General.
    Having said that, when Mr. Harrigan is describing that 
process, in the past, the DEA has--has turned down those 
petitions. To the extent that the FDA is continuing to look at 
these studies and providing recommendations to the 
administration, I don't think anything is foreclosed. I know 
that the position of the DEA up to now has been not to 
reschedule, but things change over time. I'm not saying that 
they would, so----
    Mr. Mica. From hearing to hearing, they're changing. So, 
well----
    Mr. Harrigan. Chairman, if I could just clarify, though. 
DEA has never rejected an application that was approved by FDA 
and NIDA. So a little distinction there, but we've----
    Mr. Mica. So we need to talk to FDA and NIDA what they're 
doing, what they think. And, again, that's out of your--not in 
your----
    Mr. Harrigan. Right.
    Mr. Mica. --your end.
    Just to wrap up, this is kind of interesting point here 
that I've kind of viewed in my history, and I've been away from 
the--you know, having the jurisdiction, but I deal in 
transportation and, you know, I chaired that committee and 
subcommittees. One of the things I did when I took over 
transportation was try to look at how we're--I mean, you want 
to talk about killing people; it's the automobile. It was about 
43,000 people were dying. We got that down to, I think, 33,000. 
We did some things that made some changes in the way people 
conduct themselves.
    Half of the deaths, and I don't know, it went back up 
again, I guess, of late, but half the deaths were related to 
alcohol. And I know there's a reporting mechanism, but I don't 
honestly know, is there a reporting mechanism for substance 
abuse such as marijuana or other substances that have impacted 
the deaths, because that's a pretty big number? A lot of people 
who use some of these substances, marijuana and others, mix it 
with alcohol or whatever or--and I don't know how many people 
have died driving a car that are blown out with this fairly 
potent marijuana.
    Could you tell me, do you know if that's--we inventory 
that? I would like--and if we don't, maybe I should look at 
trying to get--gather some data. They always say, well, this 
doesn't kill anyone, but do we really know who's going down, 
say, even in the thousands of traffic deaths?
    Mr. Harrigan?
    Mr. Harrigan. Sir, one statistic I do have, and I'll have 
to find the citation for you, but it says 28 percent of fatally 
injured drivers test positive for marijuana.
    Mr. Mica. Twenty-eight percent.
    Mr. Harrigan. Twenty-eight percent.
    Mr. Mica. I had not heard----
    Mr. Harrigan. Now, again, I will get the citation----
    Mr. Mica. Okay.
    Mr. Harrigan. --and the requisite study for you, sir.
    Mr. Mica. And you don't know if it's required in the 
reporting or--I guess they would do a blood test in a fatality, 
so the information is available someplace.
    Mr. Harrigan. Right.
    Mr. Mica. Maybe that's where they gather that information.
    Mr. Walsh?
    Mr. Walsh. You know, my information, Chairman, is that the 
reporting is not as consistent----
    Mr. Mica. Okay.
    Mr. Walsh. --in that regard as it is for alcohol-related 
deaths and that there is some question, particularly if there's 
not a fatality, a blood test may not always be taken.
    Mr. Mica. Of course, we're talking fatalities versus 
hundreds of thousands of other wrecks and injuries.
    Mr. Walsh. And I would just--I would note, and I believe 
the DEA has the same concern, that we are highly concerned 
about the increase in the rate of drugged driving, and in 
Colorado, it's an issue that we're facing as well right now.
    Mr. Mica. So, finally, Harrigan, I guess you and I are on 
the same plane. You view this as a gateway drug, marijuana?
    Mr. Harrigan. Well, Chairman, that's a great question. I 
believe more testing needs to be done. I don't think it can 
definitively say. It is certainly addictive. As far as a 
gateway drug----
    Mr. Mica. So you don't know and----
    Mr. Harrigan. --I think there still needs to be----
    Mr. Mica. --that's fine.
    Mr. Harrigan. --more research.
    Mr. Mica. And that's fine.
    Well, we're going to hear from some of the experts where--
again, we've got a little bit different product on the market.
    And, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    I would just note the chairman talked about the Dutch 
experience. Rand Corporation studied the Dutch experience, and 
two interesting facts with legalization: Dutch citizen cannabis 
use was comparable and slightly lower to its neighboring 
countries, and secondly, Rand--the Rand study found no evidence 
of a gateway impact with the legalization of cannabis. The 
opposite, actually. So----
    Mr. Mica. When was the study conducted?
    Mr. Connolly. Fairly recently, I believe. We'll be glad to 
get the study--2010. Yeah.
    So we can all have our opinions, but, you know--and with 
respect to 28 percent of fatal car accidents, I sure would like 
to see that study, because I've seen studies that suggest that 
the impairment level, not that one is advocating it, but 
actually, when you look at statistical comparisons of 
impairment on driving under marijuana use versus other, you 
know, controlled and noncontrolled substances, is fairly 
moderate, but I'd be glad to look at the evidence.
    Mr. Harrigan, do you believe tobacco has a high potential 
for abuse?
    Mr. Harrigan. Again, sir, I can't comment as a law 
enforcement official. I certainly--what I see, I'm not a 
medical professional. I'm not a healthcare professional. But, 
you know, literally thousands, hundreds of thousands of people 
have died as a result of tobacco use.
    Mr. Connolly. And you would agree it's addictive? It can 
be--it can be addictive?
    Mr. Harrigan. Yes, sir.
    Mr. Connolly. Have you ever had--are you aware of ever a 
doctor prescribing a carton of cigarettes as a medical--for a 
medical condition?
    Mr. Harrigan. I am not, no, sir.
    Mr. Connolly. Do you believe there's an accepted safe use 
of tobacco under medical supervision?
    Mr. Harrigan. Again, sir, I'm--if you're asking me to 
comment as an agent, I assume if it's under the right 
protocols, if it's--you have medical and scientific experts 
overseeing, but again, I would have to defer to the medical 
experts on something like that.
    Mr. Connolly. Probable answer is no. So why wouldn't 
tobacco, in light of those--the answers to those questions, why 
wouldn't tobacco be a Schedule I narcotic?
    Mr. Harrigan. Again, that's a decision that's made by--in 
conjunction with FDA and NIDA and HHS, sir.
    Mr. Connolly. In your testimony, you disparaged public 
policy based on public opinion.
    Mr. Harrigan. Uh-huh.
    Mr. Connolly. As a student of history, why do you think 
prohibition failed?
    Mr. Harrigan. Why did prohibition fail? I don't----
    Mr. Connolly. We actually had to have a constitutional 
amendment to repeal prohibition. With the best of intentions, 
after a century of activism by well-meaning people who saw the 
ravages of alcohol on men, eating up their paychecks, on women 
and orphans being thrown on the street and so forth, you know, 
the Temperance League finally reaching its own and all that, 
and after a decade of experience, it was repealed. Why--you're 
a law enforcement man, Mr. Harrigan. Why do you think we had to 
repeal prohibition?
    Mr. Harrigan. Well, again, close to 100 years ago, sir, it 
was certainly a different world. And I think, obviously, I 
think what you're getting at is probably public opinion.
    However, that being said, I think now, almost 100 years 
later, we do have organizations, such as the DEA, such as HHS, 
NIDA, FDA, that can make--draw logical conclusions based on 
medical and scientific fact----
    Mr. Connolly. I agree.
    Mr. Harrigan. --not public opinion.
    Mr. Connolly. I agree. I don't think that every law on the 
books should be a matter of public plebiscite. I certainly 
agree with you.
    However, you would agree, would you not as--given your 
background as a cop that respect for laws is also an important 
part of the culture of law enforcement; that, I mean, if we 
have a public that totally disdains a law or significantly 
disdains a law, awfully hard to enforce it, makes the job of 
the cop on the beat much tougher. Would you not agree?
    Mr. Harrigan. It does make it tougher, sir, but that's not 
to say it's right.
    Mr. Connolly. Well, going back to prohibition, might you 
not agree that the broad disdain for prohibition among the 
American public had a lot to do with why we had to pass a 
constitutional amendment to repeal it, because it created a 
culture of disrespect for the law and affected other laws that 
were terribly important?
    Mr. Harrigan. But, again, I think, sir, that is what 
Congress is here to do. If they determine that the laws need to 
be changed, the laws need to be changed. Again, DEA's charge, 
our mission is to enforce the Federal narcotic laws.
    Mr. Connolly. Mr. Walsh, the fact that 20 States have 
changed their laws with respect to marijuana and two have 
actually changed their laws to allow some recreational use, 
including your beloved home State----
    Mr. Mica. And the District----
    Mr. Connolly. And now the District of Columbia.
    Mr. Mica. Within the last hour.
    Mr. Connolly. That--you know, I guess we could continue to 
take the position that that doesn't make it right and that 
doesn't change a thing, it's still a substance I narcotic. 
It's--you know, it needs to be--people need to be arrested and 
incarcerated after conviction for use and possession or for 
growing, but the fact of the matter is, that's a lot of States 
telling us something else about--I mean, these are legislators, 
these are voters telling us something else about their views on 
marijuana. Surely we at least have to take cognizance of it as 
we think through future policy, don't we?
    Mr. Walsh. I think, Congressman, that we do need to take it 
into account, but I want to say something that I think is 
really important, and I--with respect to our relationship with 
the DEA on these issues. Our focus is on those eight Federal 
priorities. DEA walks with us in lock step on those priorities. 
They support us. They support the prosecutions that we bring 
that are focused on true Federal interests, those eight 
priority areas. That takes into account the fact that State 
laws may vary from location to location.
    DEA is also working with us to address the sort of evolving 
marijuana landscape on the ground. Over time--you know, we've 
always counted on State and local law enforcement to assist us 
in addressing any drug problem. We continue to do that. When 
State and local laws change as drastically as they have in some 
places, that changes the landscape for DEA. It changes the 
landscape for us. We do take it into account, but the work that 
DEA does with us has always been focused on drug-trafficking 
organizations and sophisticated operations that pose very 
serious public safety risks.
    So I feel duty bound really to defend how DEA has responded 
on the ground and our relationships with them in Colorado to 
try to address these things, even acknowledging that the point 
that you make, Congressman, about changing public opinion is a 
real one.
    Mr. Connolly. And I--listen, I'm a skeptic about 
legalization and decriminalization. I'm--you know, so my 
questions are much in the category of devil's advocate for you 
two, but I'm not convinced one way or the other, but I am 
troubled by the statistics this hearing has forced me to look 
at. And that's why I said there are two questions for me: 
Efficacy. Is it working? Because you can be right as rain and 
feel good about the high principals you're espousing, but if 
the--but if it's in fact a failing policy, I don't think that 
serves any good public good. And secondly, the issue of 
equality. And I hear what you say about the eight areas you 
want to focus on, and I applaud the fact that you want to go 
after the cartels and the organized crime and try to get them; 
they're vicious. They're violent. They've destroyed whole 
communities and destabilized the southern part of our border 
and the northern part of our neighbors. But the fact of the 
matter is 750,000 people in this country, not all organized 
crime, got arrested last year for marijuana use or possession. 
And so the inequalities of law enforcement domestically 
continue.
    Mr. Walsh. But----
    Mr. Connolly. And if you look at who is in prison for this 
reason, it's three-quarters nonwhite.
    Mr. Walsh. Congressman, I do want to clarify one thing, 
though. The 750,000 arrests number that you're putting out 
there reflects local, State and Federal law enforcement. A lot 
of--the vast majority of those arrests are pursuant to State 
law and local law. That's not something that DEA is enforcing 
on a day-to-day basis. What they do with us, the Department of 
Justice, is focus on the sophisticated operations.
    Mr. Connolly. But, Mr. Walsh, it's all in the context. You 
can say that, and I agree, but on the other hand, the 
insistence that there's no scientific basis for questioning 
whether marijuana ought to stay as a substance I narcotic 
certainly contributes to why State and local governments are 
enforcing it as if it were. That comes from the Federal level, 
not the State and local level. They're not making up the 
science here.
    Mr. Walsh. But Congress--if I could go back to your point 
about public opinion, which I think is a valid one. There are 
many States in the United States where marijuana is not about 
to become legal or--whether for recreation or medical purposes, 
there are many States. So public opinion varies across this 
country.
    We as Federal law enforcement have to enforce the law in a 
consistent way in every State. That's the challenge that we're 
facing right now. That's the challenge DEA faces in trying to 
fulfill their anti-drug mission that--and that we face in 
trying to fulfill our anti-drug mission. So that's why those 
eight factors are so important, is because they set forth in 
clear guidance, at least from my point of view, very clear 
guidance what are the true Federal interests. That's where 
we're putting our attention.
    Mr. Connolly. And I really appreciate that. And I think, 
with respect to public opinion, it's tricky business. As I said 
to Mr. Harrigan, I agree, you can't--you know, the law can't be 
a matter of just pure plebiscite; you know, let's all vote on 
the ones we like, and the ones we don't, and the ones we like, 
that will be the law.
    But on the other hand, what has happened with respect to 
marijuana is public opinion is shifting and shifting radically 
away from the policies that have dominated this subject, at the 
Federal level anyhow, for the last 40-plus years. What does 
that mean for us? What cognizance should we take of that, and 
what, in light of that, should we re-evaluate, if anything?
    And then there is the other data we've gone through in this 
hearing that I do think raises questions about where we are 
right now on marijuana use. And I thank the chairman for having 
the hearing, because it's most illuminating. And I thank you 
both for being here and for your service.
    Mr. Mica. I might follow up with a question and ask you if 
you have the statistics. I keep hearing this 750,000 people 
arrested or in jail, of how many of those are State, local and 
then Federal. From what I ascertain from Mr. Harrigan is most 
of the Federal people are the big dealers, and they are--
they're also involved in other things. You're not picking up 
people smoking a joint.
    Mr. Harrigan. You're absolutely right, Chairman. 
Approximately 99.8 percent of Federal prisoners arrested for 
narcotics are in for drug trafficking, not possession.
    Mr. Mica. Okay. Well, if you could give us----
    Mr. Harrigan. Sure.
    Mr. Mica. --that.
    Mr. Harrigan. I'd be happy.
    Mr. Mica. And maybe--I don't know if there's any breakdown 
of what they've--well, sometimes you get they plead to a lot 
lower offenses. That's one of the things.
    Boy, I could get into this a little bit more, because now 
that I heard--are you involved at all, Harrigan, or they talk 
to you, Walsh, on--I heard that they're looking at a whole bank 
of granting, not amnesty, but sort of a blanket pardon for 
people who were on certain--convicted of certain offenses. I 
guess it was--was it with cocaine? Crack cocaine? Yeah. Is 
that--you haven't heard anything on that?
    Mr. Walsh. Certainly not some sort of a blanket pardon. I 
know that the----
    Mr. Mica. We had--in fact, we entered in the record some 
commentary from some folks that said that's being considered, 
so because, again, we've changed the law, and there's a 
disparity in the conviction, and there were, like, 8,000 or 
something. That's a fairly significant number.
    But that's--I'm diverting a little bit. If you can get us 
the--any exact information, Mr. Harrigan, again, on those 
cases, it would be good, because I keep hearing that number.
    Mr. Massie, waiting most patiently.
    Mr. Massie. Thank you, Mr. Chairman.
    Mr. Walsh, the 4-page memo of August 2013 has eight points 
in there, but it's--at the end of the day, it's only 4 pages, 
and it leaves it up to you, the U.S. attorneys, to exercise 
discretion on interpretation.
    To my question to Mr. Harrigan a while ago about industrial 
hemp, isn't it the same section of the Controlled Substances 
Act that precludes marijuana federally that precludes growing 
of industrial hemp as well? Can you tell me what your 
interpretation of that is in Colorado? If you, for instance, 
came to know that a farmer in Colorado was growing industrial 
hemp, would you prosecute that case, for instance?
    Mr. Walsh. Well, Congressman, I want to be careful about 
not speculating on future cases, because you--one thing I've 
learned is that there are factors and aggravating factors and 
mitigating factors; you just never know until the case actually 
arrives on your doorstep. But I would say this, the policy 
process that Mr. Harrigan referred to is underway right now. 
Until that's done, I'm certainly taking a very cautious 
approach to any prosecution that is purely hemp-based. We need 
to see how that turns out, and then we'll make decisions based 
on that final guidance that we get.
    Mr. Massie. But if a case comes to you before that final 
guidance is issued, you would have to make a decision.
    Mr. Walsh. It--depending on the circumstances, I think we 
might defer a decision, but I will tell you, clearly, without 
speculating on future cases, which is hard, that for the 
moment, we're waiting to see how the policy process plays out 
before we make those sorts of decisions.
    Mr. Massie. Just----
    Mr. Walsh. Which I hope will be a quick--quick and----
    Mr. Massie. I hope it'll be quick, too. We're waiting in 
Kentucky, and we haven't decided to legalize marijuana, for 
instance, but industrial hemp could be a productive crop. I 
mean, I'm just trying to use layman's understanding of this 4-
page document and the eight points and a little bit of common 
sense, but it seems like if growing industrial hemp didn't step 
on any of these eight points, which I don't think it would--I 
don't think it would lead to marijuana possession on Federal 
property, for instance, or violence and the use of firearms. 
Industrial hemp could be valuable; I don't think it's going to 
be that valuable that firearms will become involved. But it 
just seems to me that that--I would hope, in Colorado, if a 
case comes to you that a farmer is growing industrial hemp and 
you don't have your guidance yet, that you would exercise the 
same sort of interpretation that I have, which--and this is a 
way, actually, we are trying to understand it in Kentucky, 
because it's not an academic exercise. We have people ready to 
grow industrial hemp, but they don't want to go to jail.
    Mr. Walsh. Congressman, certainly without specific guidance 
on hemp, I have to exercise my overall prosecutorial judgment 
and discretion, and the memo that we received in August of 2013 
influences that. It's not the final word.
    Mr. Massie. Okay. Great. Thank you.
    Mr. Harrigan, I want to follow up to a question that Mr. 
Mica asked and your answer to it. It was a statistic about what 
percent of automobile accidents, I think, where the users 
tested--or the occupants or drivers tested for marijuana usage. 
Was that number--what was the number?
    Mr. Harrigan. Twenty-eight percent, Congressman.
    Mr. Massie. Twenty-eight percent. Was that just fatalities 
or accidents?
    Mr. Harrigan. Those were fatalities. Not just accidents; 
fatalities.
    Mr. Massie. And so the test that they do, can it determine 
if, for instance, the level of THC in the person's body was 
high enough to degrade their judgment, or could it have 
indicated that somebody in the past month had used marijuana?
    Mr. Harrigan. Sir, I don't know, to be honest with you. I'd 
be happy to get you some more information on that, but I know 
it's something they are trying to perfect that test to 
determine the THC level in someone's system.
    Mr. Massie. So what--do you know what the standard 
procedure is in an autopsy to determine if somebody--at what 
level of THC was in their blood?
    Mr. Harrigan. I don't, sir. No, I don't.
    Mr. Massie. I would presume it's sort of taking the blood 
and doing the tests like if you were going to get a job or in a 
criminal case or something, but that it's hard for me to 
imagine that there's some test that undertakers or, you know, 
medical professionals do during the autopsy that could tell 
them whether the person was impaired or under the influence.
    Mr. Harrigan. Well, again, it may be requested by the 
respective law enforcement component that was involved in that 
particular fatality.
    Mr. Massie. So if the test showed that--all it indicated 
was that somebody in the last 2 years had used marijuana, maybe 
all that statistic shows is that 28 percent of people use 
marijuana.
    Mr. Harrigan. It could. Again, I can't speculate as to what 
or not it shows, sir.
    Mr. Massie. All right. Thank you very much.
    Mr. Harrigan. Thank you.
    Mr. Mica. Well, first of all, I want to thank our two 
witnesses, both for their patience and also for their 
participation and enduring the weather challenges we've had.
    This is an incredibly lively, interesting, informative 
subject.
    Mr. Connolly and I were just talking. We hadn't paid much 
attention to it before the beginning of this year, but just a 
lot of the information you provide helps enlighten us as to 
where things are.
    We're continuing this. It's an interesting time, an 
interesting subject, and maybe a transition in our society, but 
we do have conflict in laws, State, Federal; policies that are 
all over the place, and we've got to sort it out, see where 
we're going and do the right thing.
    But we thank you both for participating.
    I thank--we've had some lively interest from other members. 
Fortunately the snow kept some of the others away, but--and we 
will leave the record open for 7 days, and we may have 
additional questions for you to respond for the record.
    There being no further business before the Subcommittee on 
Government Operations, this hearing is adjourned.
    [Whereupon, at 3:37 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC] [TIFF OMITTED] 

                                 <all>
</pre></body></html>
